APPENDIX

1a
APPENDIX A
_________
VERMONT SUPREME COURT
_________
ENTRY ORDER
_________
2019 VT 81
SUPREME COURT DOCKET NO. 2018-362
MAY TERM, 2019
_________
STATE OF VERMONT
v.
CLYDE S. BOVAT
_________
APPEALED FROM:
Superior Court, Chittenden Unit, Criminal Division
_________
DOCKET NO. 373-2-18 Cncr
_________
Filed: Nov. 8, 2019
_________
In the above-entitled cause, the Clerk will enter:
Affirmed.
FOR THE COURT
/s/ M. Skoglund
_
Marilyn S. Skoglund,
Associate Justice

2a

Dissenting:

Concurring:

/s/ Paul L. Reiber
Paul L. Reiber,
Chief Justice

/s/ Harold E. Eaton, Jr.
Harold E. Eaton, Jr.,
Associate Justice

/s/ Beth Robinson
Beth Robinson,
Associate Justice

/s/ Karen R. Carroll___
Karen R. Carroll,
Associate Justice

NOTICE: This opinion is subject to motions for
reargument under V.R.A.P. 40 as well as formal
revision before publication in the Vermont Reports.
Readers are requested to notify the Reporter of
Decisions by email at: JUD.Reporter@vermont.gov or
by mail at: Vermont Supreme Court, 109 State
Street, Montpelier, Vermont 05609-0801, of any
errors in order that corrections may be made before
this opinion goes to press.

3a
VERMONT SUPREME COURT
_______
2019 VT 81
No. 2018-362
_______
STATE OF VERMONT
v.
CLYDE S. BOVAT
_______
SUPREME COURT
_______
On Appeal from
Superior Court, Chittenden Unit, Criminal Division
_______
May Term, 2019
_______
Filed: Nov. 8, 2019
_______
David R. Fenster, J.
David Tartter, Deputy State’s Attorney, Montpelier,
for Plaintiff-Appellee.
Samantha V. Lednicky of Murdoch Hughes Twarog
Tarnelli, Burlington, for Defendant-Appellant.
PRESENT: Reiber, C.J., Skoglund, Robinson, Eaton
and Carroll, JJ.
_______
¶ 1. SKOGLUND, J. Defendant, Clyde Bovat, was
convicted of shooting a deer in violation of Vermont

4a
big-game-hunting laws and failing to immediately
tag the deer. On appeal he claims the trial court
erred in denying his motion to suppress evidence
allegedly obtained in violation of his constitutional
right to be free from warrantless government
intrusions. For the forthcoming reasons, we affirm.
¶ 2. In the early morning hours of Thanksgiving
2017, a resident of Huntington, Vermont was awoken
by a gunshot close to his home on Hinesburg Hollow
Road. The concerned resident called the state game
warden to report a possible deer jacking. The warden
arrived at the scene and spoke with the resident,
who advised that the gun shot woke him shortly
before 4:00 a.m. and that it rattled his windows. The
resident said that he looked out his window and saw
a dark-colored truck with “running lights on top.” A
preliminary search by the warden revealed no
evidence of a deer jacking. The warden returned
later that morning, at approximately 7:00 a.m., to
inspect the scene more closely and located deer
tracks along the southern shoulder of the road. At
the approximate location the resident had described
seeing the truck parked, the warden found what he
believed to be deer hair and blood. He collected
samples for evidence.
¶ 3. In the course of the investigation, the warden
interviewed E.S., who reported shooting a six-point
buck at 7:00 a.m. on Thanksgiving morning in
Hinesburg. After some equivocation, E.S. informed
the warden that he had not shot the deer and that
defendant had sold him the deer carcass at “Clark’s
Barn.” The partially butchered carcass was seized as
evidence. Then the warden, along with other law

5a
enforcement officers, went to defendant’s residence
to investigate further.
¶ 4. Law enforcement officers proceeded up
defendant’s driveway to the two-bay detached
garage. Through a window in the garage door, the
wardens observed the rear tailgate and license plate
of defendant’s black pickup truck. The wardens also
saw what appeared to be deer hair and blood on the
top of the truck’s rear tailgate, which was
“approximately one arm’s length” from the wardens’
vantage point. As the tailgate was closed, the
wardens were unable to see into the bed of the truck
or the interior side of the tailgate.
¶ 5. The wardens went to defendant’s front door,
spoke with his wife, and asked for her permission to
enter the garage. Defendant’s wife said that she
couldn’t find the key and was therefore unable to
open the garage door.
¶ 6. Based in part on their observations through
the garage window, the wardens obtained a search
warrant to seize defendant’s truck and collected
samples of the blood they had observed, which
matched a sample from the deer at issue. They did
not photograph the truck until approximately five
days after the seizure, during which time the truck
had been left outside in inclement weather. Due to
exposure to the elements, a smaller amount of blood
than originally observed was visible, and the deer
hair was no longer visible.
¶ 7. Prior to trial, defendant sought to suppress
the evidence obtained through the search warrant,
arguing that: (1) his garage falls squarely within the
curtilage of his home and is protected from
warrantless government intrusions; (2) law

6a
enforcement had no lawful basis to peer through his
garage window; (3) even if the garage is not within
the curtilage of his home, sufficient steps were taken
to exclude its interior from public view; (4) absent
the unlawful intrusion into his garage, there was no
probable cause to issue a search warrant and the
evidence obtained must be suppressed; and (5) the
warden included false and misleading statements as
well as material omissions in his affidavit of probable
cause.
¶ 8. The trial court denied the suppression motion.
The court held that the garage, which “is located a
significant distance from the home, . . . separated by
a row of trees” and a small stone wall, was not part
of the curtilage. However, the court noted that even
if the garage was part of the curtilage, the warden
had a legitimate right to be on defendant’s driveway
and the garage window was in plain view,
emphasizing that the wardens entered the driveway
to conduct legitimate police business.
¶ 9. On appeal, defendant argues that the court
erred in denying his motion to suppress
because: (1) his garage is within the curtilage of his
home; (2) his truck’s tailgate and license plate were
not clearly visible from a lawful public vantage point;
and (3) the warden included false or misleading
statements and material omissions in his affidavit in
support of the search warrant which constituted a
Franks violation. See Franks v. Delaware, 438 U.S.
154 (1978).
¶ 10. We agree with defendant that his garage is
within the curtilage of his home. We are
unpersuaded by his remaining arguments. The
wardens were conducting a legitimate police

7a
investigation,
during
which
they
observed
defendant’s truck in plain view from a semiprivate
area. We decline to address the merits of defendant’s
Franks challenge because the challenged statements
were not necessary to the probable cause to issue a
search warrant.1 Accordingly, we affirm.
¶ 11. When reviewing a motion to suppress, we
review the trial court’s factual findings for clear
error. State v. Dubaniewicz, 2019 VT 13, ¶14, __ Vt.
__, 208 A.3d 619. The trial court’s findings are
upheld unless there is no reasonable or credible
evidence to support them. State v. Weisler, 2011 VT
96, ¶ 6, 190 Vt. 344, 35 A.3d 970. If the trial court’s
findings are not clearly erroneous, we then review
the legal issues de novo. Id. ¶ 7 (citation omitted).
¶ 12. First, defendant argues the trial court erred
in concluding that his garage is not in the curtilage
of his home. Yes, this was error. Curtilage is defined
as “the land immediately surrounding the home and
associated with it,” State v. Byrne, 149 Vt. 224, 227,
542 A.2d 276, 278 (1988), into which the
“ ‘privacies of life’ may extend,” State v. Rogers, 161
Vt. 236, 241, 638 A.2d. 569, 572 (1993) (quoting
Oliver v. United States, 466 U.S. 170, 180 (1984)).

1

To succeed on a Franks challenge, defendant must show by
a preponderance of the evidence that the government agent
intentionally, knowingly, or with reckless disregard for the
truth, included false information or omitted material
information in the affidavit. 438 U.S. at 155-56. Here,
defendant’s Franks challenge is of no moment. Sufficient
evidence supported the warrant without consideration of any of
the alleged omissions or misleading statements and the claimed
omissions or misleading statements would not affect the
probable cause determination.

8a
The United States Supreme Court has identified four
factors to aid in determining if an area is curtilage:
(1) the area’s proximity to the home; (2) whether the
area is within an enclosure surrounding the home;
(3) the nature and uses to which the area is put; and
(4) the steps taken by the resident to protect the area
from observation. United States v. Dunn, 480 U.S.
294, 301 (1987). These factors do not produce a
“finely tuned formula” that can be mechanically
applied; rather, they bear upon the central
consideration of “whether the area in question is so
intimately tied to the home itself that it should be
placed under the home’s ‘umbrella’ of Fourth
Amendment protection.” Id. Vermont adopted the
Dunn factors in State v. Hall, 168 Vt. 327, 330, 719
A.2d 435, 437 (1998), after first applying them in
Rogers, 161 Vt. at 242 n.*, 638 A.2d at 572 n.*.
¶ 13. The Dunn Court found that the barn in
question in that case was a substantial distance from
the house (sixty yards away), it did not lie within the
area surrounding the house that was enclosed by a
fence, law enforcement had objective data that the
barn was not being used for intimate activities of the
home, and the defendant had done little to protect
the barn area from observation by those standing in
the open fields around the structure. 480 U.S. at 30203. Based on these findings, the Court concluded the
barn was not within the curtilage of the home. Id. at
301.
¶ 14. Following the Dunn analysis, this case calls
for a different result. First, defendant’s garage and
home are in close proximity to one another,
separated only by an area of driveway that can
accommodate approximately two vehicles and plastic

9a
garbage bins, and a small row of trees. While the
trial court found the distance “significant” from
viewing aerial photographs admitted at hearing, the
photographs actually depict a continuity of space
with a “walking path” to the house from the
driveway. Second, a low, white split-rail fence stands
along the road but, as the trial court found, it does
not enclose anything. It begins along one side of the
driveway and continues off toward an open field
away from the residence. The fence does not separate
the garage from the home in any way. Third,
defendant uses the garage for domestic purposes—
parking his vehicles and storing his hunting
equipment. Finally, while defendant did not prevent
observation of the garage itself by placing barriers or
“no trespassing” signs, the garage door was closed
and locked. The garage is properly considered to be
within the curtilage of the home.
¶ 15. We have held that curtilage includes
outbuildings such as sheds and garages used for
domestic purposes. State v. Potter, 148 Vt. 53, 61,
529 A.2d 163, 168 (1987) (determining that
defendant’s shed was part of curtilage because it was
outbuilding used for storing family property). Here,
defendant’s garage merited “the same constitutional
protection from unreasonable searches and seizures
as the home itself.” Rogers, 161 Vt. at 241, 638 A.2d
at 572; see also State v. Bryant, 2008 VT 39, ¶ 13,
183 Vt. 355, 950 A.2d 467.
¶ 16. We nonetheless conclude that the warden’s
plain-view observations through the window of the
garage from a place he had a right to be did not
violate defendant’s Fourth Amendment rights. In
State v. Koenig, we held that Fourth Amendment

10a
protections extend only to items which are not in
plain view and cannot be seen by persons from a
place they have a legitimate right to be. 2016 VT 65,
¶ 15, 202 Vt. 243, 148 A.3d 977 (citing United States
v. Orozco, 590 F.2d 789, 792 (9th Cir. 1979)). The
plain-view exception applies here.
¶ 17. The plain-view doctrine is grounded on two
principles: “first, ‘that when a police officer has
observed an object in plain view’ from a legal vantage
point the owner’s privacy interests are forfeited; and
second, that requiring a warrant once the police
‘have obtained a firsthand perception of [the object]
would be a needless inconvenience.’ ” State v.
Bauder, 2007 VT 16, ¶ 30, 181 Vt. 392, 924 A.2d 38
(quoting Texas v. Brown, 460 U.S. 730, 739 (1983)).
¶ 18. Regarding the first prong—that the police
officer observes the object from a legal vantage
point—we have previously stated that “police officers
are entitled to enter residential property, including
portions that would be considered part of the
curtilage, to carry out legitimate police business.”
Koenig, 2016 VT 65, ¶ 16. Portions of the curtilage
like driveways or walkways, which are normal access
routes for anyone visiting the premises, are
considered semiprivate places. State v. Pike, 143 Vt.
283, 287, 465 A.2d 1348, 1351 (1983) (citing United
States v. Magana, 512 F.2d 1169, 1171 (9th Cir.
1975)); State v. Ryea, 153 Vt. 451, 453, 571 A.2d 674,
675 (1990); see also State v. Libbey, 154 Vt. 646, 646,
577 A.2d 279, 280 (1990) (mem.) (“We have found a
significant difference between private areas within
the curtilage of the home, and semiprivate areas,
such as a driveway, steps and a walkway.”). When
state officials restrict their movement to semiprivate

11a
areas to conduct an investigation, “observations
made from such vantage points are not covered by
the Fourth Amendment.” Pike, 143 Vt. at 288, 455
A.2d at 1351 (citing United States v. Humphries, 636
F.2d 1172, 1179 (9th Cir. 1980)). In other words, a
private area may still be open to visual inspection
from a semiprivate area. See Rogers, 161 Vt. at 248,
638 A.2d at 578 (finding that trooper did not violate
Fourth Amendment while “standing in a position
from which he could lawfully make an observation”
into defendant’s garden within curtilage). Here,
while the garage itself is a private area that the
police would not have been justified to enter without
a warrant, the wardens restricted their movements
to defendant’s driveway, a semiprivate area, where
they observed what they believed to be incriminating
evidence on defendant’s truck. Because the wardens
observed the truck from a legal vantage point, the
first part of the plain-view exception is met.
¶ 19. An object must also be in plain view. Bauder,
2007 VT 16, ¶ 30. “Where the government observes
that which is willingly exposed to the public, there is
no invasion of privacy.” Koenig, 2016 VT 65,
¶ 15. A person can reassert privacy interests in
semiprivate areas by posting ‘no trespassing’ signs or
erecting barriers to apprise others that the area is
private. State v. Kirchoff, 156 Vt. 1, 10, 587 A.2d 988,
994 (1991). When a landowner has taken steps to
indicate that strangers are not welcome, such that a
reasonable person would conclude that the public is
excluded from the land, an expectation of privacy is
reasonable. Id.; State v. Blow, 157 Vt. 513, 517, 602
A.2d 552, 555 (1991). However, absent evidence of
intent to exclude the public, and when the police

12a
officer can readily observe the object from a lawful
vantage point, the plain-view requirement is met.
This is true here.
¶ 20. Defendant urges us to analogize the present
case to State v. Ford, 2010 VT 39, 188 Vt. 17, 998
A.2d 684. We decline to do so. In Ford, an officer
performing a welfare check walked around the
defendant’s house, bent down to a basement window,
and saw marijuana plants under a grow-light
through a gap in the curtains. Id. ¶¶ 3-4. However,
that case looked at whether the emergency-aid
exception applied under the facts of the case and did
not address the plain-view exception at issue here.
See id. ¶ 6. Moreover, there was no claim in Ford
that the officer saw into the basement window from a
semiprivate place that was a normal access route for
visitors to the premises. See id. ¶¶ 9, 21.
¶ 21. We are also unconvinced by defendant’s
argument that his detached garage, with closed
doors, connotes a reasonable expectation of privacy.
Defendant did little, if anything, to indicate that
expectation. As the trial court found, the garage was
not in an enclosure. Defendant posted no signs and
erected no large barriers around his garage. And, as
the trial court found, the “small white split-rail fence
does not protect the area from observation in any
way.” The windows in the garage doors were not
covered or blocked in any way. Any adult standing on
defendant’s driveway could see into the interior of
his garage where his truck was parked because
nothing was done to prevent someone from seeing
into the garage from the driveway.
¶ 22. Defendant also relies on Collins v. Virginia,
138 S. Ct. 1663, 1668 (2018), where an officer

13a
investigating a traffic infraction and theft uncovered
a suspect vehicle from under a tarp on the
defendant’s driveway. Without a warrant, the officer
removed the tarp, ran the license plate number, and
photographed the uncovered vehicle. Id. The United
States Supreme Court held that the officer’s actions
invaded defendant’s Fourth Amendment interests in
the curtilage of his home and the vehicle searched.
Id. at 1675. Collins, however, concerned the
automobile exception to the warrant requirement—
not the plain-view exception. Furthermore, the
warden here did not move or uncover anything to see
defendant’s truck. Therefore, we find defendant’s
reliance on Collins misplaced.
¶ 23. For the foregoing reasons, we conclude that
the plain-view exception to the prohibition on
warrantless
searches
and
seizures
applies.
Accordingly, the trial court correctly denied
defendant’s motion to suppress.
Affirmed.
FOR THE COURT:
/s/ M. Skoglund
Associate Justice

_

14a
¶ 24. REIBER, C.J., dissenting. The majority
holds that defendant’s truck was in the plain view of
the game wardens from a lawful vantage point, and
therefore
their
observations
were
not
an
unconstitutional search within the meaning of the
Fourth Amendment to the United States
Constitution and Article 11 of the Vermont
Constitution.2 I disagree. In my view, the majority’s
analysis undervalues “the deeply-rooted legal and
societal principle that the coveted privacy of the
home should be especially protected.” State v. Blow,
157 Vt. 513, 518, 602 A.2d 552, 555 (1991). In
addition, the majority has misapplied the plain-view
doctrine and the knock-and-talk exception, resulting
in a bright-line rule that permits law enforcement
officers to freely wander and observe while on a
person’s driveway, without reference to the
particular circumstances of the search. Based on the
facts of this case and our principles of search-andseizure jurisprudence, I would reverse the decision of
the trial court and grant defendant’s motion to
suppress. Accordingly, I respectfully dissent.
¶ 25. Our fundamental inquiry is whether the
game wardens invaded defendant’s reasonable
expectation of privacy when looking through his
garage-door window to view his truck. See State v.
Byrne, 149 Vt. 224, 226-27, 542 A.2d 276, 278 (1988)
(“[T]he touchstone of [Fourth] Amendment analysis
has been the question whether a person has a
constitutionally protected reasonable expectation of
2

Because I conclude that this search violates the
requirements of both Article 11 and the Fourth Amendment, I
need not address any possible differences in analysis under the
respective provisions.

15a
privacy.” (quotations omitted)); State v. Ford, 2010
VT 39, ¶ 10, 188 Vt. 17, 998 A.2d 684 (explaining
Article 11 “protects the people’s right to be free from
unreasonable government intrusions into legitimate
expectations of privacy” (quotation omitted)).
Whether a law enforcement officer’s actions are
constitutional must be evaluated according the
particular facts of that case. Ohio v. Robinette, 519
U.S. 33, 39 (1996) (holding that “touchstone of the
Fourth Amendment is reasonableness” and
“emphasizing the fact-specific nature of the
reasonableness inquiry” (quotation omitted)); see
also State v. Bauder, 2007 VT 16, ¶ 12, 181 Vt. 392,
924 A.2d 38 (rejecting “bright-line tests” in
determining reasonableness in search-and-seizure
jurisprudence “because these tests fail to do justice to
the values underlying Article 11” (quotation
omitted)).
¶ 26. We have long held that the reasonable
expectation of privacy—and thus a person’s
protection
against
warrantless
governmental
intrusion—is at its highest in the home and its
curtilage. Ford, 2010 VT 39, ¶ 10 (reasoning that
“[t]he home is a repository of heightened privacy
expectations, and as such, it receives heightened
protection under Article 11,” and recognizing same
protection for curtilage as for home (quotation
omitted)); Byrne, 149 Vt. at 227, 542 A.2d at 278
(affirming heightened privacy expectation for home
and curtilage under Fourth Amendment); see also
State v. Bryant, 2008 VT 39, ¶ 27, 183 Vt. 355, 950
A.2d 467 (recognizing that “Vermonters normally
have high expectations of privacy in and around
their homes”). As the United States Supreme Court

16a
has stated, “At the [Fourth] Amendment’s very core
stands the right of a [person] to retreat into [the]
home and there be free from unreasonable
governmental intrusion.” Florida v. Jardines, 569
U.S. 1, 6 (2013). Because “[t]his right would be of
little practical value if the State’s agents could stand
in a home’s porch or side garden and trawl for
evidence with immunity,” or could “enter a [person’s]
property to observe [the person’s] repose from just
outside the front window,” the home’s constitutional
protections extend to the area “immediately
surrounding and associated with the home.” Id.
(quotation omitted).
¶ 27. Both the garage, the area the game wardens
observed, and the driveway, the area from which the
wardens made their observation, are part of the
curtilage of defendant’s home. See State v. Hall, 168
Vt. 327, 330, 719 A.2d 435, 437 (1998) (listing factors
courts consider in determining whether area is part
of curtilage); see also ante, ¶¶ 14, 18 (holding that
garage was part of curtilage and assuming driveway
was part of curtilage). Because the garage and
driveway are part of defendant’s curtilage, we begin
with the presumption that the wardens’ warrantless
intrusion on defendant’s property and the resulting
observations were unconstitutional. Bauder, 2007 VT
16, ¶ 14 (“Searches outside the normal judicial
process are . . . presumptively unconstitutional . . . ”);
see also Jardines, 569 U.S. at 7 (describing curtilage
as “constitutionally protected area” and explaining
that law enforcement officer’s intrusion within
curtilage is “sharply circumscribed”).
¶ 28. This presumed protection is not absolute,
however, and warrantless searches may be

17a
permissible if an exception to the constitutional
protection applies. Bauder, 2007 VT 16, ¶ 14 (stating
warrantless searches “are . . . permissible only
pursuant only to a few narrowly drawn and welldelineated exceptions”). It is the State’s burden to
show such an exception applies. Ford, 2010 VT 39,
¶ 12. In this case, the State argues that the “plainview” exception applies, and the majority agrees. See
ante, ¶ 16. Under the plain-view exception,
“constitutional protections do not attach to activities
or possessions that a person knowingly exposes to
the public.” State v. Rogers, 161 Vt. 236, 244, 638
A.2d 569, 573-74 (1993) (quotation omitted); see also
State v. Kirchoff, 156 Vt. 1, 7, 587 A.2d 988, 993
(1991) (“[A] person cannot rely on Article 11 to
protect areas or activities that have been willingly
exposed to the public. Article 11 protects the people
from governmental intrusion into their private
affairs; to the extent their affairs are willingly made
public, the provision has no application.”).
¶ 29. As the majority explains, the plain-view
exception depends on an object’s being in plain view
from a lawful vantage point. Bauder, 2007 VT 16,
¶ 30; see also ante, ¶ 17. “[T]he place of observation
is normally more important than the place observed.”
Rogers, 161 Vt. at 243, 638 A.2d at 573. There would
be no reasonable expectation of privacy in an object
located within the home but plainly visible from a
public street. See, e.g., Claverie v. L.S.U. Med. Ctr.
in New Orleans, 553 So. 2d 482, 486 (La. Ct. App.
1989) (reasoning “observation of plaintiff’s residence
from a public street [did not] constitute[] either a
search or an invasion of privacy”). Nor would we
recognize a reasonable expectation of privacy in an

18a
object located within the curtilage but plainly visible
from a portion of private property outside of the
curtilage, unless the defendant has taken steps to
shield that area from the public. See Rogers, 161 Vt.
at 248-49, 638 A.2d at 576 (holding state trooper’s
observation of defendants’ garden from nearby
woods—which was observation of area inside
curtilage from point outside curtilage—was
constitutional because “defendants [had] taken no
steps to prevent the public from reaching the place of
observation or to prevent the observation,” and
therefore “they [had] knowingly exposed the garden
to the public”).
¶ 30. Where, as here, law enforcement officers
make observations from within the curtilage itself,
the observations cannot be considered in plain view
unless the officers have lawfully intruded into the
defendant’s curtilage to the point of observation. See
Jardines, 569 U.S. at 7 (“While law enforcement
officers need not shield their eyes when passing by
the home on public thoroughfares, an officer’s leave
to gather information is sharply circumscribed when
he steps off those thoroughfares and enters the
Fourth Amendment’s protected areas.” (quotation
omitted)). Without naming it, the majority relies on
the “knock-and-talk” exception to establish that the
wardens lawfully entered defendant’s property prior
to viewing the truck. See ante, ¶ 18. Under this
exception, “police officers are entitled to enter
residential property, including portions that would
be considered part of the curtilage, to carry out
legitimate police business,” such as to “approach[] a
residence to knock on the door, or otherwise
approach[] the residence to speak to the

19a
inhabitants.” State v. Koenig, 2016 VT 65, ¶ 16, 202
Vt. 243, 148 A.3d 977 (explaining “knock-and-talk” is
“also an exception to the protections against
warrantless searches” and is distinct from plain-view
exception).
¶ 31. The plain-view and knock-and-talk exceptions
may work together to allow law enforcement officers
to enter private property “to conduct an investigation
or for some other legitimate purpose,” and then, once
there, officers’ “observations made from such vantage
points are not covered by the Fourth Amendment” or
Article 11. 1 W. LaFave, Search and Seizure: A
Treatise on the Fourth Amendment § 2.3(f), at 782,
784-87 (5th ed. 2012); see also Koenig, 2016 VT 65,
¶¶ 16, 22 (quoting LaFave, Search and Seizure
§ 2.3(f), at 782-87 and applying same reasoning to
searches under Article 11). When officers enter
private property in this way, they must “restrict
their movements to places visitors could be expected
to go (e.g., walkways, driveways, porches).” LaFave,
Search and Seizure § 2.3(f), at 782-84; Koenig, 2016
VT 65, 17 (“In carrying out their duties during a
knock-and-talk, the police are limited to the areas
where the public would be expected to go.”). “[I]f
police utilize normal means of access to and egress
from the house for some legitimate purpose, such as
to make inquiries of the occupant, . . . it is not a
Fourth Amendment search for the police to see . . .
from that vantage point what is happening inside the
dwelling.” LaFave, Search and Seizure § 2.3(c), at
752-55 (quotation omitted). “On the other hand, if
the police stray from that path to other parts of the
curtilage in order to conduct the surveillance,” in
that circumstance a visual observation “is a search

20a
within the meaning of the Fourth Amendment.” Id.
§ 2.3(c), at 756-57. In sum, the knock-and-talk
exception allows law enforcement officers to enter a
person’s curtilage in the same manner as a
“reasonably respectful” member of the public; and
the public-view exception allows officers to “keep
their eyes open” while they do so. See State v.
Seagull, 632 P.2d 44, 47 (Wash. 1981) (en banc)
(holding that “[a]n officer is permitted the same
license to intrude as a reasonably respectful citizen”
and “[i]n doing so they are free to keep their eyes
open”).
¶ 32. Contrary to the majority’s representation,
this Court has never held that the knock-and-talk
exception categorically allows a law enforcement
officer to enter a person’s driveway for legitimate
police business. See ante, ¶ 18. Our case law has
never established a “semiprivate” area that is
categorically exempt from the reasonable expectation
of privacy. Rather, we have offered a driveway as an
example of a part of the curtilage that the public
could be expected to go, as part of the usual way to
access the home, and therefore could be considered
held open to the public. For example, in State v.
Pike, this Court concluded that the state trooper’s
observations, which were made from the driveway,
were permissible because the driveway was “that
portion of the curtilage which is the normal route of
access for anyone visiting the premises” and so was
“only a semiprivate area.” 143 Vt. 283, 287, 465 A.2d
1348, 1351 (1983) (quotation omitted). We further
reasoned, “[W]hen state officials come onto private
property to conduct an investigation and restrict
their movements to driveways which visitors could

21a
be expected to use, observations made from such
vantage points are not covered by the Fourth
Amendment.” Id. at 288, 465 A.2d at 1351. Our
inquiry in Pike was whether the officer accessed the
defendant’s property in the same way as the public
could be expected to do in approaching the property’s
residents—not a categorical review of whether the
officer stayed on the driveway, regardless of the
other circumstances of the case. See United States v.
Magana, 512 F.2d 1169, 1171 (9th Cir. 1975) (“It
would be equally unwise to hold, as a matter of law,
that all driveways are protected by the Fourth
Amendment from all penetrations by police officers
as to hold that no driveway is ever protected from
police incursions.”).
¶ 33. We followed this reasoning in later cases, as
well. In State v. Ryea, we held that observations
made on defendant’s driveway were constitutional
because “[a] driveway serves as the normal access
route for anyone visiting the premises,” so although
the “driveway may fall within the curtilage, it
nevertheless constitutes a semiprivate area.” 153 Vt.
at 453, 571 A.2d at 675. Similarly, in State v. Byrne,
we held that evidence found around the steps leading
to the defendant’s residence was constitutionally
obtained because the steps were within “that portion
of the curtilage which is the normal route of access
for anyone visiting the premises.” 149 Vt. at 228, 542
A.2d at 279 (quotation omitted). More recently, in
State v. Koenig, we held that a state trooper’s
warrantless entry into a three-walled, structure
attached to the residence, which the trooper entered
after identifying the suspect car from a public street,
was “permissible because it was reasonable under

22a
these facts for the officer to conclude the doorway
inside the structure was an entrance for the public to
use to access the home.” 2016 VT 65, ¶ 22. In each
case, we have emphasized that the officer’s
observations were constitutional because, based on
the facts in those cases, the observations were made
within a portion of the curtilage that the public
would access in visiting the home. Therefore, that
portion of the curtilage could be considered publicly
exposed and without a reasonable expectation of
privacy.
¶ 34. Other courts have also focused on the public’s
access to the house in deciding whether a law
enforcement officer’s incursion violated a reasonable
expectation of privacy. The Arizona Court of Appeals
concluded in State v. Blakely that the officer’s
actions in that case were unconstitutional because he
had “walked past the pathway that led directly to the
front door and continued walking down the driveway
into an area ordinarily not used by visitors” rather
than “approaching the front door to make contact
with any occupants of the residence.” 243 P.3d 628,
633 (Ariz. Ct. App. 2010). In State v. Maxfield, the
Washington Supreme Court held that an
investigator’s observations were constitutional where
the investigator, upon entering the defendant’s
property, went to the front door and knocked, then,
when he received no answer, walked to the garage
door and knocked, and the observations were made
while proceeding along those walkways. 886 P.2d
123, 133 (Wash. 1994) (en banc). The court reasoned
the officer “did not substantially and unreasonably
depart from the area impliedly open to the public.”
Id. at 133; see also People v. Freeman, 460 N.E.2d

23a
125, 131 (Ill. App. Ct. 1984) (holding police officer’s
observation of garage’s interior through window
unconstitutional because “[t]he evidence does not
show the officer had to pass by the garage in order to
lawfully execute the search warrant for the house, or
for any other reason”). But see, e.g., People v. Crapo,
479 N.Y.S.2d 779, 780 (N.Y. App. Div. 1984) (holding
“officer’s action in walking up defendant’s driveway
to the door of his garage and then looking through
the garage door window was no more intrusive an
event than ordinarily occurs during the daily
incidents of life in an urban neighborhood”); State v.
Buzzard, 2007-Ohio-373, 860 N.E.2d 1006, at ¶¶ 1,
15 (holding officers’ action in “looking through a
small opening in a locked double door of a residential
garage” was constitutional because “the police are
free to observe whatever may be seen from a place
where they are entitled to be”).
¶ 35. Following a related line of reasoning, some
courts have held law enforcement officers’ actions
unconstitutional even when the officers adhered to
the public’s usual route of access if the officers
nonetheless exceeded their “implicit license” to enter
the property. Jardines, 569 U.S. at 8. In Florida v.
Jardines, the United States Supreme Court held that
a law enforcement officer’s purpose in entering a
defendant’s property is relevant to whether the
officer exceeded the “implicit license” that permits
the public to enter a person’s curtilage “to approach
the home by the front path.” Id. at 8-9. The Court
reasoned: “To find a visitor knocking on the door is
routine,” but “to spot that same visitor exploring the
front path with a metal detector, or marching his
bloodhound into the garden before saying hello or

24a
asking permission, would inspire most of us to . . .
call the police.” Id. at 9. Explaining that “the
background social norms that invite a visitor to the
front door do not invite [the visitor] there to conduct
a search,” the Court concluded that in that case,
where the officers had walked a drug-sniffing dog
along the pathway to the front door, the officers’
purpose was to “conduct a search, which is not what
anyone would think [the officers] had license to do.”
Id. at 9-10. Similarly, in State v. Johnson, the
Washington Court of Appeals held that law
enforcement
officers’
observations
were
unconstitutional where the officers “never attempted
to approach the house or contact the occupants,”
even though the officers physically remained within
the public’s normal access route to the home. 879
P.2d 984, 991 (Wash. Ct. App. 1994). And in Griffin
v. State, the Arkansas Supreme Court adopted the
same view, holding the officers’ actions in that case—
in which they “checked out a shed and walked
around the premises” prior to obtaining consent from
the occupants—did not comply with the implied
consent of a “knock and talk” and were
unconstitutional. 67 S.W.3d 582, 589-90 (Ark. 2002).
These cases, like the cases that focus on the public’s
access route to the house, emphasize that a law
enforcement officer may enter a defendant’s curtilage
only in the same manner as a member of the public.
Furthermore, although an officer may see what is
plainly visible when doing so, the officer has no
license to conduct a warrantless search within the
curtilage even in an area that is impliedly held open
to the public.

25a
¶ 36. Here the trial court found that the game
wardens “went to Defendant’s residence and
approached the residence via the driveway,” and “[a]t
one point, both wardens looked into Defendant’s twobay detached garage that was located at the back of
Defendant’s driveway some distance from the road
. . . [t]hrough a window in the garage door” and
“observed Defendant’s black pickup truck parked in
the garage.” The court made no findings about how
large the window was, how close to the window the
wardens stood when viewing the truck, whether the
wardens looked through the window before or after
approaching the residence, or at what point the
wardens attempted to contact the residence’s
occupants.3
¶ 37. The findings do not establish that the truck
was in plain view from a public vantage point. On
the contrary, the findings establish that the truck
was not in plain view from the public street or from a
portion of defendant’s property outside of the
curtilage. In order to bring the truck into view, the
wardens had to enter defendant’s driveway, which
was part of the curtilage and “a constitutionally
protected area.” Jardines, 569 U.S. at 7. Because the
place of observation was within the curtilage, the
truck could not be considered publicly exposed unless
the State showed, and the trial court found, that the
wardens came to the point of observation and made
the observation in the same manner as a “reasonably
3

The court observed that defendant’s wife “testified that the
wardens were walking around and looking through the window
of the garage” for “approximately 15 minutes before she went
outside to speak to” them. However, the court did not adopt or
reject this testimony in a finding.

26a
respectful” member of the public. See Seagull, 632
P.2d at 47; see also Jardines, 569 U.S. at 8-9
(considering whether officers’ entry adhered to
implied license permitting visitors to approach
home). The findings do not establish this. They are
silent on how the wardens came to be looking in the
garage-door window or whether that spot was part of
the public’s access route to the house. It does not
suffice that the wardens’ point of observation was on
the driveway. The driveway is not categorically
exempted from protection against governmental
intrusion. The State must show more, and the court’s
findings do not establish that it did so.
¶ 38. Nor does the evidence indicate that the game
wardens came to the point of observation as a
member of the public would when accessing the
home. The photograph of defendant’s property
submitted at the motion-to-suppress hearing shows
that his driveway proceeds onto his property a short
way and then opens to the left into a small parking
area. Immediately behind the parking area is the
two-door garage, which is detached from the
residence. To the right of the driveway is a walkway
that proceeds to the house. The photograph suggests
that if the wardens parked in the driveway, or
anywhere in the parking area other than directly in
front of the garage-door window, they would have
had to walk away from the normal access route to
the house in order to get close to the garage-door
window. Additionally, the photograph and a game
warden’s testimony at the hearing indicates that the
window was not large—around eight to twelve
inches. Given that size, the wardens likely would not
have been able to look through the window and view

27a
the truck while walking from their parked vehicles to
the front door. They would have had to walk directly
to the garage-door window and stand right in front of
it. Furthermore, defendant’s wife’s testimony
indicates they did just that. As the court recounted,
defendant’s wife “testified that the wardens were
walking around and looking through the window of
the garage” for “approximately fifteen minutes before
she went outside to speak with the warden.” The
game warden’s testimony did not contradict wife’s;
the warden testified that they “had looked through
the window pretty soon after arriving,” and he could
not remember whether they looked through the
window first or went to the front door first. The game
warden also testified that they went to defendant’s
property in order to find the truck, not to contact
defendant, and when they did not see the truck upon
arriving at defendant’s property, they “went to—up
to the window of one of the garage bays so [they]
could look in.”
¶ 39. According to this evidence, the game wardens
went to defendant’s property for the purpose of
conducting a search for the truck, and before
contacting anyone at the property, they walked away
from the home, directly to the small window in the
garage door, which was located far back from the
public road, and peered in from a vantage point
necessarily close to the window. This the wardens
were not permitted to do. The fact that the driveway
itself is visible from the street, or that the public may
enter part of the curtilage on the way to the home,
does not give law enforcement officers permission to
wander freely around the driveway and investigate.
This is not a situation in which observation was

28a
unavoidable from a lawful vantage point; they would
not have had to “turn [their] head[s] from observing”
the garage’s interior “even though standing in a
position from which [they] could lawfully make an
observation.” Rogers, 161 Vt. at 248, 638 A.2d at 576.
Their observations were an unconstitutional search.
¶ 40. The majority notes that defendant did not
create a reasonable expectation of privacy in his
garage. See ante, ¶ 21. A defendant must take
affirmative steps to demonstrate a reasonable
expectation of privacy in an area outside of the
curtilage. See State v. Dupuis, 2018 VT 86, ¶ 11, __
Vt. __, 197 A.3d 343 (“[T]his Court has reaffirmed
that a landowner must signal an intent to exclude
the public from ‘open fields’ in order to maintain a
constitutionally cognizable expectation of privacy.”).
An area inside the curtilage is presumed to have a
reasonable expectation of privacy unless the
defendant has willingly exposed the area to the
public. See Rogers, 161 Vt. at 244, 638 A.2d at 57374. The interior of the garage was not exposed to the
public. The garage’s interior was not plainly
observable from the public street or from an area
outside of the curtilage. It also was not plainly
observable to a member of the public accessing the
house. The garage’s interior therefore retained its
presumed reasonable expectation of privacy.
¶ 41. Furthermore, the fact that the driveway itself
was plainly exposed to public view does not put
everything that can be seen from the driveway
within public view. As the Eighth Circuit said in
United States v. Wells, “[A] homeowner may expose
portions of the curtilage of his home to public view
while still maintaining some expectation of privacy

29a
in those areas.” 648 F.3d 671, 678 (8th Cir. 2011). In
that case, the court reasoned that the defendant
“certainly exposed his unpaved driveway to public
view, and therefore could not reasonably expect that
members of the public would not observe whatever
he might do there.” Id. However, the defendant
“could reasonably expect that members of the public
would not traipse down the drive to the back corner
of his home, from where they could freely observe his
entire backyard.” Id. In the same way here, although
defendant’s driveway was publicly exposed, and
therefore he had no reasonable expectation of privacy
in what he did on the driveway, he could reasonably
expect that the public would not wander around his
driveway, in the opposite direction from his house,
position themselves close to his garage-door window,
and peer in.
¶ 42. Based on the reasoning above, I would hold
that the trial court erred in denying defendant’s
motion to suppress. I therefore respectfully dissent.
¶ 43. I am authorized to
Robinson joins this dissent.

state

that

/s/ Paul L. Reiber
Chief Justice

Justice

30a
APPENDIX B
_________
STATE OF VERMONT
_________
SUPERIOR COURT
Chittenden Unit
_________
CRIMINAL DIVISION
Docket No. 373-2-18 Cncr
_________
STATE OF VERMONT,
v.
CLYDE S. BOVAT,
Defendant.
_________
DECISION ON MOTION
_________
Filed: August 17, 2018
_________
This matter came before the Court for a hearing on
June 11, 2018 on Defendant Clyde Bovat’s motion to
suppress certain evidence obtained as the result of
the execution of a search warrant at his residence,
filed May 14, 2018. Defendant was present and was
represented by Samantha Lednicky, Esq. and Frank
Twarog, Esq. The State was represented by Deputy
State’s Attorney Kelton Olney, Esq.

31a
I: Findings of Fact
Based on the credible evidence adduced at the
hearing, the Court makes the following findings of
fact. During an investigation into an alleged deer
jacking, two game wardens went to Defendant’s
residence and approached the residence via the
driveway. At one point, both wardens looked into
Defendant’s two-bay detached garage that was
located at the back of Defendant’s driveway some
distance from the road. Through a window in the
garage door, the wardens observed Defendant’s black
pickup truck parked in the garage. The truck was
parked facing away from the wardens so that they
had a clear view of the rear tailgate. Looking
through the window, the tailgate was approximately
one arm’s-length from the wardens’ vantage point.
The wardens could see deer hair and a small amount
of blood on the top of the truck’s rear tailgate. The
tailgate was closed at the time the wardens observed
it. The wardens were unable to see any blood in the
bed of the truck or on the interior side of the tailgate
from their vantage point.
Based in part on this observation made into the
garage, the wardens obtained a search warrant to
seize the truck; they included their observations of
the blood and deer hair in the affidavit supporting
the search warrant. Upon seizure of the truck, the
wardens obtained samples of the blood they had
observed, but they did not take any photographs of
the tailgate at that time. The wardens photographed
the truck approximately five days after the seizure.
During this interval, the truck had been left out in
the elements and subject to at least some inclement
weather. The deer hair was not visible in the

32a
photograph that was taken. Some amount of blood
was visible, though the amount was smaller than
was originally observed. During the wardens’ initial
visit to Defendant’s property, the wardens sought
Defendant’s wife’s consent to search the garage.
However, Defendant’s wife did not have the remote
to the garage and was unable to open it.
The wardens also went to the Clark’s barnyard and
saw blood spots on the snow in the barnyard and
found a rag with deer blood on it. This information
was not included in the affidavit in support of the
warrant. However, this information appears in the
affidavit of probable cause filed with the charge.
Defendant called two witnesses: his wife, Mary Ann
Bovat, and Gerald Bovat. Mary Ann Bovat testified
that she observed the wardens arrive in three pickup
trucks from her vantage point in the kitchen. She
testified that the wardens were walking around and
looking through the window of the garage. Mary
Ann Bovat testified that it was approximately 15
minutes before she went outside to speak with the
wardens and that she had called her daughter before
she went out to speak with them. Mary Ann Bovat
testified that she was very upset by the arrival of the
wardens.
Gerald Bovat testified that he lives in Johnson
Vermont but traveled down to St. George when he
heard from his niece that there were wardens in
Defendant’s yard. It took Gerald Bovat over an hour
to travel to Defendant’s residence. Gerald Bovat
then took up a position in the trailer park across the
street and began to observe the wardens through his
binoculars. Gerald Bovat observed the wardens
looking around. Gerald Bovat then went to the

33a
residence but was denied access to the garage
because the wardens had seized the garage in order
to obtain the warrant.
II: Conclusions of Law
First, Defendant argues that evidence obtained
when state game wardens looked in the window of
his garage should be suppressed and excluded as a
basis for the search warrant. Second, Defendant
seeks to suppress evidence obtained based on the
game wardens’ entry into the barnyard of a third
party.
Third, Defendant attempts to launch a
Frank’s challenge as to certain information contained
in the search warrant, specifically whether the
wardens observed cab lights on Defendant’s truck
and observed deer hair and blood on the back of
Defendant’s truck tailgate as stated in the affidavit
supporting the search warrant.
A: Observation into the Garage
Defendant argues that “law enforcement violated
the Fourth Amendment to the U.S. Constitution by
searching the curtilage of Defendant’s home and his
truck for evidence without a warrant.” Specifically,
Defendant argues that the wardens conducted an
illegal search by looking in the windows of his twocar garage because it was within the curtilage of his
residence.
The Court disagrees because this
particular garage falls outside the curtilage of the
residence and, even if it were within the curtilage,
the contents of the garage were within plain view
from the driveway.
While both the Fourth Amendment of the Federal
Constitution and Article 11 of the Vermont
Constitution protect a person’s home from

34a
unreasonable searches, “neither the Fourth
Amendment nor Article 11 confer absolute protection
against government intrusion.” State v. Koenig, 2016
VT 65, ¶ 14, 202 Vt. 243. “When government agents
conduct a warrantless search, the law presumes such
an intrusion into an individual’s privacy is
unreasonable and a constitutional violation.” State
v. Ford, 2010 VT 39, ¶ 10, 188 Vt. 17. However,
there are “a few narrowly drawn and well-delineated
exceptions” to this general rule. Id. The most
relevant exception to the situation at issue in this
motion is the plain-view exception.
As explained by the Vermont Supreme Court,
Fourth Amendment protections...extend only
to items which are not in plain view and may
not be seen by persons from a place they have
a legitimate right to be....
Article 11
protections extend only to areas where
individuals have ‘conveyed an expectation of
privacy in such a way that a reasonable person
would conclude that he sought to exclude the
public.... Where the government observes that
which is willingly exposed to the public, there
is no invasion of privacy—and therefore no
search.
Koenig, 2016 VT 65, ¶ 15. “[T]he plain-view doctrine
is predicated on two principles: first, ‘that when a
police officer has observed an object in plain view’
from a legal vantage point the owner’s privacy
interests are forfeited; and second, that requiring a
warrant once the police ‘have obtained a first-hand
perception of [the object] would be a needless
inconvenience.’” State v. Bauder, 2007 VT 16, ¶ 30,

35a
181 Vt. 392 (quoting Texas v. Brown, 460 U.S. 730,
739 (1983)).
The first principle underlying the plain-view
doctrine is comprised of two prongs: first, that the
police officer is observing the object from a legal
vantage point; and second, that from that vantage
point, the object is in plain view.
As to the first prong, “[i]t is well established that
police officers are entitled to enter residential
property, including portions that would be
considered part of the curtilage, to carry out
legitimate police business.” Koenig, 2016 VT 65,
¶ 16. The portions of private property that an officer
may enter include those that constitute the “normal
route of access for anyone visiting the premises,” as
these are “only a semi-private area.”
Id.
“A
driveway, as that portion of the curtilage which is
the normal route of access for anyone visiting the
premises, is only a ‘semiprivate area.’... Thus, when
state officials come onto private property to conduct
an investigation and restrict their movements to
driveways which visitors could be expected to use,
observations made from such vantage points are not
covered by the Fourth Amendment.” State v. Pike,
143 Vt. 283, 287-88 (1983).
A person can reassert their privacy interests in
even these semiprivate zones. “Where indicia, such
as fences, barriers or ‘no trespassing’ signs
reasonably indicate that strangers are not welcome
on the land, the owner or occupant may reasonably
expect privacy.... The inquiry is objective—whether
a reasonable person should know that the occupant
has sought to exclude the public.” State v. Kirchoff,
156 Vt. 1, 10 (1991).

36a
In analyzing Defendant’s motion, the Court first
considers whether Defendant’s garage falls within
the curtilage. “The curtilage is an area outside the
physical confines of a house into which the ‘privacies
of life’ may extend, and which receives the same
constitutional protection from unreasonable searches
and seizures as the home itself.” State v. Rogers, 161
Vt. 236, 241 (1993). In determining whether an area
falls within the curtilage, Vermont has adopted the
factors first announced in United States v. Dunn, 480
U.S. 294 (1987). State v. Hall, 168 Vt. 327, 330
(1998). The Dunn factors are: “First, how close is
the area in question to the home? Second, is the area
in question included in an enclosure? Third, what
are the uses to which the area is put? Finally, what
steps have been taken to protect the area from
observation by people passing by?” Id.
The garage is located a significant distance from
the home. No precise distance was provided at the
hearing for the distance between the garage and the
residence.
However, the garage in question is
detached from the residence and separated by a row
of trees, what appears to be a small stone wall, what
appears to be a freestanding pergola, and an area of
driveway sufficient to accommodate at least two
vehicles parked side-by-side as well as three large
plastic garbage bins.
The garage is not included in an enclosure. From
the aerial photograph admitted at the hearing,
Defendant’s Exhibit I, it appears that the residence
and curtilage is surrounded by a rough barrier of
trees that excludes the garage. The garage is located
at the far end of a driveway that is not directly
connected to the residence but is separated from the

37a
residence by a walking path through the trees. The
other end of the driveway, nearer to the garage,
leads to a dirt path that continues into an open field.
The garage is behind a single line of split rail fencing
— the split rail fence does not enclose anything —
that begins near one side of the garage and continues
off toward the open field and away from the
residence.
Other than testimony regarding a box that may
have been used to deposit rent checks, there was no
testimony regarding the uses of the garage.
However, the photographs indicate that the garage is
adjacent to an open field and has a worn dirt
pathway heading in the direction of the field and
away from the residence. Additionally, Defendant’s
truck was parked in the garage.
No steps have been taken to protect the area from
observation by people passing by. The only thing
between the garage and the roadway is a small white
split rail fence that does not protect the area from
observation in any way. By contrast, the view of the
residence is partially obscured by trees in front of
and surrounding the house — including the front
and back yards — forming a rough outline that
includes the residence but excludes the garage.
Based upon the Court’s review of the evidence
regarding the location at issue, Defendant’s garage
falls outside of the curtilage of the residence.
Even if Defendant’s garage were within the
curtilage, no violation occurred when the wardens
looked in the window of the garage. The wardens
looked through an uncovered clear window from the
driveway and did not leave the driveway in order to
see through the window. Additionally, the wardens

38a
never entered the garage. “It is well-established that
police officers are entitled to enter residential
property, including portions that would be
considered part of the curtilage, to carry out
legitimate police business.” Koenig, 2016 VT 65,
¶ 16. “Thus, when the police come on to private
property to conduct an investigation or for some
other legitimate purpose and restrict their
movements to places visitors could be expected to go
(e.g., walkways, driveways, porches), observations
made from such vantage points are not covered by
the Fourth Amendment.” 1 W. LaFave, Search and
Seizure: A Treatise on the Fourth Amendment
§ 2.3(f), at 782-87 (5th ed. 2012). Here, the wardens
entered the driveway to conduct legitimate police
business. “Criminal investigation is as legitimate a
societal purpose as is census taking or mail delivery.”
State v. Corbett, 516 P.2d 487, 490 (Or. App. Ct.
1973) (cited in LaFave).
Given the layout of the residence, this driveway is a
semiprivate area that appears to serve as the normal
access route for anyone visiting the residence.
Koenig, 2016 VT 65, ¶ 17; Pike, 143 Vt. at 287 (“A
driveway, as that portion of the curtilage which is
the normal route of access for anyone visiting the
premises, is only a ‘semiprivate area.’”). Anyone
visiting the residence would be required to park in
the driveway. Anyone visiting the residence would
be required to use the small walking path connected
to the driveway that leads to the residence. While it
is not required to walk through the garage to access
the residence, the garage is adjacent to the driveway
and one can see into the window in question without
leaving the driveway.

39a
Since the wardens had a legitimate right to be in
the driveway, Defendant’s truck would have been in
plain view through the window in the garage door
connected to the driveway. “Fourth Amendment
protections [] extend only to items which are not in
plain view and may be not seen by persons from a
place they have a legitimate right to be.” Koenig,
2016 VT 65, ¶ 15.
Defendant’s reliance on Collins v. Virginia, 584
U.S. ___, 138 S. Ct. 1663 (2018), is misplaced. In
Collins, the U.S. Supreme Court found that a semienclosed portion of a driveway which was adjacent to
the house and which was not a part of the normal
route of access for anyone visiting the home was a
part of the curtilage of the home. Id. at 1670-71.
However, in deciding this issue, the Court relied on
its precedents and did not expand or otherwise alter
the traditional definition given to what constitutes
the curtilage. See id. (citing Florida v. Jardines, 569
U.S. 1 (2013), which in turn cited Oliver v. United
States, 466 U.S. 170 (1984), which was relied upon by
the Court in Dunn). While the attached, semienclosed portion of the driveway was found to be a
part of the curtilage in that case, the facts of this
case, as described supra, do not warrant such a
finding here.
Further, Collins did not concern the plain-view
exception to the warrant requirement; rather,
Collins involved the automobile exception. 138 S. Ct.
at 1670 (“When these justifications for the
automobile exception ‘come into play,’ officers may
search an automobile without having obtained a
warrant so long as they have probable cause to do
so.”).
The officer in Collins stepped into the

40a
curtilage—the enclosed portion of the driveway—and
removed a tarp, which covered the vehicle in
question, to examine it. Id. at 1668. The Court held
that “[t]he automobile exception does not afford the
necessary lawful right of access to search a vehicle
parked within a home or its curtilage because it does
not justify an intrusion on a person’s separate and
substantial Fourth Amendment interest in his home
and curtilage.” Id. at 1672. Here, the officers did not
enter the curtilage to look into the garage; they
remained in the driveway, which as noted above, is
only a semi-private area. Further, the incriminating
evidence—the blood and deer hair on the tailgate—
were in plain view; the officers did not intrude on
any separate Fourth Amendment interest in
obtaining the incriminating evidence.
Finally, the portion of the opinion cited by
Defendant supports upholding the validity of the
search in this case. As noted by the Court, “[t]he
ability to observe inside curtilage from a lawful
vantage point is not the same as the right to enter
curtilage without a warrant for the purpose of
conducting a search to obtain information not
otherwise accessible.” Id. at 1675. Here, whether
the garage qualifies as curtilage or not, the officers
observed the truck inside of it from a lawful vantage
point and saw incriminating evidence in plain view.
B: Clark’s Barnyard
Defendant argues that law enforcement had no
justifiable reason for entering Clark’s barnyard and
photographing evidence. However,
[i]n a motion to suppress based on an illegal
search or seizure, the defendant bears the
burden of proving that a seizure occurred.

41a
State v. Nault, 2006 VT 42, ¶ 16, 180 Vt. 567
(mem.). Once the seizure is established, in
cases where law enforcement acted without a
warrant, the government bears the burden of
justifying the intrusion.
State v. Harris, 2009 VT 73, ¶ 6, 186 Vt. 225.
Defendant failed to present any evidence at the
hearing proving any search or seizure falling within
the protections of the Fourth Amendment or Article
11 occurred at the barnyard. “[T]he government’s
intrusion upon the open fields is not one of those
‘unreasonable searches’ proscribed by the text of the
Fourth Amendment.”
Oliver, 466 U.S. at 177.
Further, “Article 11 does not afford protection
against searches of lands where steps have not been
taken to exclude the public.” Kirchoff, 156 Vt. at 10.
The only evidence presented at the hearing
regarding the barnyard was that the wardens went
to Clark’s barnyard and saw blood spots on the snow
in the barnyard and found a rag with deer blood on
it. From what little evidence the Court has, it
appears that no search or seizure otherwise
requiring a warrant occurred. See Dunn, 480 U.S. at
301-03 (describing how the barn and surrounding
area on defendant’s ranch did not fall within the
curtilage of home 60 yards away). The wardens went
to a third party’s barnyard. There is no evidence
that the barnyard was a home or adjacent to a home,
and thus within the curtilage. There is no evidence
that the wardens entered any building or entered
any place that they did not have a legitimate right to
be. There is no evidence that there were any signs
indicating an intention to exclude the public from the
barnyard.

42a
Defendant’s motion to suppress evidence recovered
from the barnyard is denied.
C: Franks Challenge
Finally, Defendant argues that “law enforcement
used false and misleading statements to justify the
issuance of the search warrant.”
Defendant’s
original filing points to two statements that
Defendant argues were false: (1) the warden’s
statement that “[t]he truck is equipped with cab
lights[]” and (2) the warden’s statement that he
observed hair and blood on Defendant’s truck from
the window of the garage. In his supplemental filing,
Defendant adds a third challenge: that the warden’s
statement that Mr. Streeter “eventually admitted
that he had obtained the deer from Clyde Bovat”
should have included information regarding a first
statement made by Mr. Streeter where Mr. Streeter
stated that he had shot the deer himself. Defendant
asserts that not including that information rendered
the statement in the affidavit false and constitutes
an omission of material information.
“Under principles announced by the United States
Supreme Court in Franks v. Delaware, 438 U.S. 154,
155-56...(1978), a finding of probable cause may be
challenged on grounds that the supporting affidavit
contains false or misleading information, or that
material information has been omitted.” State v.
Zele, 168 Vt. 154, 157 (1998). “A defendant must
establish by a preponderance of the evidence that the
government agent ‘intentionally, knowingly, or with
reckless disregard for the truth’ included in the
affidavit false information, or omitted material
information.” Id. “Allegations of negligence or
innocent mistake are insufficient.” Franks, 438 U.S.

43a
at 171. In order to mount a Franks challenge,
Defendant must first make a
substantial preliminary showing that a false
statement knowingly and intentionally, or
with reckless disregard for the truth, was
included by the affiant in the warrant
affidavit, and if the allegedly false statement
is necessary to the finding of probable cause,
the Fourth Amendment requires that a
hearing be held at the defendant’s request. In
the event that at that hearing the allegation of
perjury or reckless disregard is established by
the defendant by a preponderance of the
evidence, and, with the affidavit’s false
material set to one side, the affidavit’s
remaining content is insufficient to establish
probable cause, the search warrant must be
voided and the fruits of the search excluded to
the same extent as if probable cause was
lacking on the face of the affidavit.
Franks, 438 U.S. at 155-56.
Part of the instant hearing was devoted to
Defendant’s Franks challenge.
At the hearing,
Defendant adduced testimony regarding the cab
lights on Defendant’s vehicle and the blood and hair
observed on the rear tailgate. Defendant introduced
no testimony or evidence at the hearing regarding
his third challenge, which he raised only in his
supplemental filing submitted after the hearing.
1: Cab Lights
First, Defendant alleges that warden who authored
the search warrant included a false statement in the
warrant application by including the statement: “The

44a
truck is equipped with cab lights.” Defendant’s
initial argument was that the statement asserted
that the warden could see the cab lights as he looked
into the window of Defendant’s garage, which
Defendant argued was impossible. The statement
contained in the search warrant affidavit does not
specifically say that the warden was able to see cab
lights on the truck in the garage at that time. At the
hearing, the warden who authored the affidavit
testified that the statement was not intended to
express that he was able to see cab lights on the
truck in the garage at that time, but rather that he
was aware that this truck had cab lights from prior
information he had learned about Defendant and his
truck. The cab lights are significant because one of
the witnesses told the warden that he had seen a
“dark colored pick-up with cab lights” leaving the
scene of the predawn gunshot. Defendant’s second
argument is that the statement is false because it
does not clearly state that the warden was relying on
information about Defendant’s truck that he had
learned in the past.
Considering either argument, Defendant has not
established by a preponderance of the evidence that
the statement constitutes perjury or was made with
reckless disregard for the truth. At worst, the
statement is unclear.
Indeed, the fact that
Defendant can attribute contrary “false” meanings to
the statement only further supports the fact that the
statement was ambiguous but not false.
This
ambiguity appears to be an innocent drafting
mistake or, at worst, negligence on the part of the
warden; Defendant has failed to establish that the
warden acted with any intent to deceive or with

45a
reckless disregard for the truth. See State v. Demers,
167 Vt. 349, 354 (1997) (holding where defendant
only showed that the warden had been negligent in
his preparation of the affidavit by omitting certain
details, there was no Franks violation warranting
suppression).
2: Evidence on Tailgate
Second, Defendant alleges that warden falsely
stated in the search warrant application that he
could see blood and deer hair on the rear tailgate of
the truck in the garage. In support of his argument,
Defendant asserts that the photographs taken by the
wardens demonstrate that there was no deer hair or
blood on the rear tailgate of the truck. The warden
acknowledged that the photograph of the tailgate,
admitted as Defendant’s Exhibit C, does not show
any deer hair on the tailgate.
However, the
photograph was taken five full days after the seizure
of the truck during which time the truck had been
left outside and exposed to the elements, including
inclement weather. The Court finds that the blood
and deer hair could easily have been washed away by
the inclement weather.
The evidence presented at the hearing supports the
facts stated in the search warrant application. The
warden who authored the search warrant affidavit
testified under oath that there was deer hair and
blood on the tailgate when he observed it through the
window, and that the deer hair and blood was still on
the tailgate when he executed the search warrant. A
second warden testified credibly at the hearing that
he also saw deer hair and blood on the rear tailgate
of Defendant’s truck through the window of the
garage while it was still parked in the garage.

46a
Again, Defendant has not established by a
preponderance of the evidence that the statement in
the affidavit constitutes perjury or was made with
reckless disregard for the truth.
3: Omissions Concerning Mr. Streeter
Defendant raises his third challenge for the first
time in his supplemental filing submitted after the
evidence was closed. Neither party introduced any
evidence regarding this issue at the hearing. The
Court had not granted Defendant a hearing on this
issue because Defendant had yet to make a
substantial preliminary showing. Thus, the Court
considers this Franks challenge separately.
Defendant’s allegations fail to meet his burden to
produce a “substantial preliminary showing that a
false statement knowingly and intentionally, or with
reckless disregard for the truth, was included by the
affiant in the warrant affidavit.” Franks, 438 U.S. at
155. “[S]ome care is required in applying the Franks
intentional-or-reckless requirement to omissions, as
‘an affidavit which omits potentially exculpatory
information is less likely to present a question of
impermissible official conduct than one which
affirmatively includes false information.’” 2 W.
LaFave, Search & Seizure § 4.4(b) (5th ed. 2017).
“Franks protects against omissions that are designed
to mislead, or that are made in reckless disregard of
whether they would mislead, the magistrate.” United
States v. Colkley, 899 F.2d 297, 301 (4th Cir. 1990)
(cited in LaFave, supra). Additionally, “[f]or an
omission to serve as the basis for a hearing under
Franks, it must be such that its inclusion in the
affidavit would defeat probable cause for arrest.” Id.
“Omitted information that is potentially relevant but

47a
not dispositive is not enough to warrant a Franks
hearing.” Id.
Defendant’s allegations, even if proven, would not
be dispositive as they would not defeat the finding of
probable cause for the warrant. While the warden’s
statement that Streeter “eventually admitted that he
had obtained the deer from Clyde Bovat” does not
specifically set out what Streeter said at first, the
statement does inform the reader that Streeter had
originally given a statement that was different from
the statement contained in the affidavit.
The
omission of the details of the statement does not
appear to be designed to mislead. Indeed, the fact
that Streeter — who was found in the process of
butchering the deer — only reluctantly identified
Defendant as the source of the deer after he had first
attempted to take the blame for the offense and after
being confronted by the warden with evidence that
he had not shot the deer would only have served as
further indication of truthfulness. See State v. Hall,
168 Vt. 327, 332 (1998) (holding that officer’s failure
to include in the warrant affidavit that he had
previously searched defendant’s property and found
no marijuana plants as claimed by informant did not
constitute a Franks violation as “the omitted
information did not negate or discredit the validity of
the officer’s sworn statements”); State v. Platt, 154
Vt. 179, 187 (1990) (denying Franks challenge to
warrant in part because omitted information did not
defeat finding of probable cause: “the fact that the
informant denied involvement in the crime, but then
confessed, particularly in light of the information
previously gathered by the police, could be construed
as a further indication of truthfulness.”).

48a
Finally, the omission of Mr. Streeter’s criminal
background information — assuming there is such
information — does not necessarily warrant a
Franks hearing. In United States v. Miller, the
Ninth Circuit upheld the district court’s finding that
failure to perform a background check on a
confidential source amounted to mere negligence.
753 F.2d 1475, 1478 (9th Cir. 1985). “It might have
been prudent for the federal agents to check on [the
source’s] background and criminal record, but their
failure to do so is not reckless disregard.” Id. The
District Court for the District of Vermont has noted
that “even though the police are not constitutionally
required to reveal information about the confidential
informant’s criminal history or status, the affiant
also may not intentionally or recklessly prepare the
search warrant affidavit to create a materially false
impression of enhanced reliability.” United States v.
Wells, No. CRIM. A. 88-87-01, slip op. at 4 (D. Vt.
Jan. 30, 1989), available at 1989 WL 252841.
However, Defendant’s allegations fail to establish
that the warden intentionally or recklessly prepared
the affidavit to create a materially false impression
of enhanced reliability by failing to include Mr.
Streeter’s criminal background information.
The Court finds that Defendant has not met his
burden to require the Court to hold a hearing on the
third challenge. The Court denies Defendant’s third
Franks challenge without a hearing. Defendant’s
Motion to Suppress based on his other two Franks
challenges is also denied.

49a
Electronically signed on August 17, 2018 at 04:50
PM pursuant to V.R.E.F. 7(d).
/s/ David R. Fenster
David R. Fenster
Superior Court Judge

50a
APPENDIX C
_________
VERMONT SUPREME COURT
_________
ENTRY ORDER
_________
SUPREME COURT DOCKET NO. 2018-362
DECEMBER TERM, 2019
_________
STATE OF VERMONT,
v.
CLYDE S. BOVAT*
_________
APPEALED FROM:
Superior Court, Chittenden Unit, Criminal Division
DOCKET NO. 373-2-18 Cncr
_________
Filed: Dec. 19, 2019
_________
In the above-entitled cause, the Clerk will enter:
Appellant’s December 9, 2019 motion for
reargument fails to identify points of law or fact
overlooked or misapprehended by this Court in its
November 8, 2019 opinion; accordingly, the motion is
denied.

51a
BY THE COURT
/s/ M. Skoglund
_
Marilyn S. Skoglund,
Associate Justice

Dissenting:

Concurring:

/s/ Paul L. Reiber
Paul L. Reiber,
Chief Justice

/s/ Harold E. Eaton, Jr.
Harold E. Eaton, Jr.,
Associate Justice

/s/ Beth Robinson
Beth Robinson,
Associate Justice

/s/ Karen R. Carroll___
Karen R. Carroll,
Associate Justice

52a
APPENDIX D
_________
IN THE VERMONT SUPERIOR COURT
CHITTENDEN COUNTY CRIMINAL DIVISION
_________
STATE OF VERMONT,
Plaintiff,
- against CLYDE S. BOVAT,
Defendant.
_________
Case No. 373-2-18 Cncr
_________
Burlington, Vermont
_________
June 11, 2018
10:44 AM
_________
Suppression Hearing Exhibits
Defendant’s Exhibits A, H, and I
_________

53a

54a

55a
APPENDIX E
_________
IN THE VERMONT SUPERIOR COURT
CHITTENDEN COUNTY CRIMINAL DIVISION
_________
STATE OF VERMONT,
Plaintiff,
- against CLYDE S. BOVAT,
Defendant.
_________
Case No. 373-2-18 Cncr
_________
Burlington, Vermont
_________
June 11, 2018
10:44 AM
_________
TRANSCRIPT OF MOTION HEARING
_________
BEFORE THE HONORABLE DAVID FENSTER,
SUPERIOR COURT JUDGE
_________

56a
APPEARANCES:
Kelton D. Olney, Esq.
Attorney for the State
Samantha V. Lednicky, Esq.
Frank J. Twarog, Esq.
Attorney for the Defendant
_________
PROCEEDINGS
***
[Testimony of Warden Joyal, pp. 7:2-22:14]
***
Q. Did you receive a call -- do you recall receiving
a phone call from a member of the public on
November 23rd of last year?
A. Yes. That was Thanksgiving morning. I was
notified and was called out by dispatch to respond to
a potential jacking incident on Hinesburg Hollow
Road close to the address of 720.
Q.

Okay. Did you investigate that call?

A.

I did.

Q. As a result of that investigation, did you
ultimately interview an individual named Eugene
Streeter (ph.)?
A. I did. Warden Currier and I both interviewed
Mr. Streeter. He goes by Dewey (ph.).
Q.

Okay. What did Mr. Streeter have to say?

A. So Mr. Streeter, based on my investigation, a
deer that was subsequently jacked on Hinesburg
Hollow Road ended up in the possession of Mr.

57a
Streeter who does have fish and wildlife prior
violations. And when we interviewed Mr. Streeter,
he originally was loyal to admit where he had -- who
he had gotten the deer from. Originally he had said
he had shot the deer himself. And then in a different
location from where the deer had been jacked on
Hinesburg Hollow Road so we told him that he was
lying. He eventually admitted that he had obtained
the deer from Mr. Bovat.
Q. Okay. In backing up just a moment, in terms
of the original call of the poached deer on Hinesburg
Road, did you receive any information from dispatch
or from that caller about what they had observed?
A. Yes. Yes. He -- Mr. Lewis, the original
complainant, had observed a dark colored truck with
cab lights -- he actually knew exactly how many cab
lights it had on it which tells me that he had
definitely got a good look at the vehicle. He wasn’t
able to obtain the registration number off the vehicle
because it was approximately 3:50 or 4:00 in the
morning on Thanksgiving. He had taken a spotlight
out and was attempting to try to see what was going
on close to his residence. And he said that the
vehicle had its headlights out but the cab lights were
showing. And then when he came around the corner,
it sped towards the main road in Huntington.
Q. Okay. So now moving forward to you’ve talked
to Mr. Streeter. What did you do next?
A. Warden Currier and I met Warden Whitlock
who was a little bit late to the scene at Hillside and
then we traveled to Mr. Bovat’s residence on St.
George Road.

58a
Q. Okay. And just so we’re clear, the reason you
went to Mr. Bovat’s residence because of what you’d
been told by Mr. Streeter?
A. Absolutely. So I know from prior experience
that Mr. Bovat operates a dark colored pickup truck
with cab lights with a registration PEPEB, PaulEdward-Paul-Edward-space-Boy. And he -- Eugene
Streeter eventually admitted that he had obtained
the deer from Mr. Bovat which bells and whistles
went off in my head at that time because I already
had prior knowledge of the vehicle that Mr. Bovat
was operating and that it matched the description
that Mr. Lewis had described on Thanksgiving
morning. So I was essentially one hundred percent
sure that we had the right vehicle.
Q. Okay. So when you went to Mr. Bovat’s
property, can you describe -- can you just describe
that property as you recall it?
A. Yeah. I’ll recall to the best of my ability. So
he has a pretty broad driveway that’s in close
proximity to the road. We didn’t see any signage
that prohibited any type of trespassing. At that
point we were pretty much on the lines of seizing a
scene to apply for a warrant at that point anyway.
There’s a detached two bay garage, each of the
garage doors has one small window in it. Has a door
to the side that I don’t believe has a window in it.
And there to the right of the garage, there’s kind of
like an entryway that would go north and then you
enter the front door to Mr. Bovat’s residence.
Q. Okay. So in terms of your observations, did
you see any no trespassing signs?

59a
A. I didn’t see any no trespassing signs to the
best of my ability. Warden Whitlock and Warden
Currier didn’t as well.
Q.

Is that property next to a trailer park?

A. It’s across the road, a little bit south to a
trailer park. Yes.
Q. Okay. Did you observe anything on Mr.
Bovat’s property that would suggest he invites people
there -- that he invites people onto the property?
A. Mr. Bovat’s, to the best of my recollection,
from what I’ve heard from the general public, is the
part manager.
MS. LEDNICKY: Objection.
THE COURT: Well, there’s an objection.
MS. LEDNICKY: If he’s stating -THE COURT: What was your objection?
MS. LEDNICKY: Oh, I thought you said -- if he’s
stating what the general public says about
statements, it’s hearsay unless if he wants us to
accept that for the truth of the matter.
MR. OLNEY: Let me rephrase.
THE COURT: Okay.
BY MR. OLNEY:
Q. Warden Joyal, did you -- when you were on the
property in November, did you observe anything that
indicated to you on that day that others were invited
onto the property?
A. I believe I saw a box close to his entryway
where it appeared that tenants might drop off some
type of rent which made me think that in his position
that people might routinely go to his property

60a
uninvited to drop off rent or issues with the park
potentially.
Q. Is it your understanding that Mr. Bovat is the
manager of that trailer park?
A. That is what I understand. I’ve -- that’s
unconfirmed so I haven’t confirmed that with him.
Q. So, Warden Joyal, at some point then did you
look into this garage?
A. Yes. So when we got to the residence, Mr.
Streeter already advised that Mr. Bovat had
departed on -- may have already departed on a
hunting trip. So Mr. Bovat also has -- he has a
newer model pickup truck and we didn’t see that
vehicle in the drive when we got there. We did see
his wife’s vehicle parked in the driveway. That was
the only thing we saw outside the driveway. So
Warden Currier and I went to -- up to the window of
one of the garage bays so we could look in and we
could see the tailgate of his truck parked facing away
right there.
Q. Okay. And did you notice anything about the
garage doors?
A. So the one that was where Mr. Bovat’s truck
was parked was closed. The one to the left of that
was open a little bit.
Q.

How much is a little bit?

A.

It’s -- approximately a foot and a half.

Q.

Okay.

A.

Foot, foot and a half.

Q.

Okay.

A.

And that’s generalizing.

61a
Q. So just -- to make sure that this is clear, is the
garage attached to the house?
A. No, I don’t believe so.
attached by quite a distance.

No, I believe it’s

MS. LEDNICKY: Can you repeat that? I didn’t
hear what the witness said.
THE COURT: Yeah. It’d be helpful if that was
clarified.
Q. Sure. To the best of your recollection, Warden
Joyal, is the garage attached to the residence?
A.

No. It is detached.

Q.

Okay.

A.

To the best of my recollection.

Q. So when you look through the window of the
garage bay door, can you describe what you
observed?
A. So it’s a relatively long pickup truck so it was
parked facing away. And obviously was all the way
in the garage because the garage door was shut. We
looked through the window and we were looking
directly at the tailgate. I’m guessing approximately
three feet away from our face. And so we were
looking at the tailgate and we could look down and I
could see that there was the PEPE B registration
plate and that we could see deer hair, small amount
of blood, and then what appeared to be scuff marks
potentially from a deer or a person that were
consistent with what we were expecting for a deer
having been loaded into the truck pretty soon before
that time.
Q. Okay. Where were the deer hair and blood
located on the truck?

62a
A. They were on the tailgate, on the top of the
tailgate. A lot of times the plastic lip that extends
over the tailgate will get burrs from being used as a
work vehicle and deer hair will get lodged into those
crevices. And then deer blood, whenever there’s a
freshly killed deer that’s loaded into a truck, a lot of
times there’s a fair amount of blood that gets sprayed
and will sometimes deposit the droplets and then
sometimes run down the back of the tailgate as well.
Q.

And was this tailgate open or close?

A.

It was closed.

Q. Okay. So what you’re describing observing
would be at the top of the tailgate --A.

Yes.

Q.

-- flush with the sides of the bed?

A.

Yes.

Q. Okay. Did you seek permission to enter this
garage?
A. Yes. We spoke with Mr. Bovat’s wife. We
were looking for consent to get into the garage. And
what our objective was is the hair and blood that we
saw, we wanted to obtain DNA samples to collect
that in the event that we had to, we could submit
them to the lab to confirm that they matched the
DNA samples that I collected on the scene on
Hinesburg Hollow Road. That’s what we were trying
to get into the garage for.
Q.

Okay. Were you given permission to go in?

A. Mr. Bovat’s wife originally said that she
couldn’t find the key. And then afterwards, Mr.
Bovat’s brother denied us access into the garage I

63a
believe through Mr. Bovat unless we had a search
warrant, which is what we did.
Q. At about this time, did you speak with Mr.
Bovat on the phone?
A.
Yes.
Q.

I did. I did speak with him over the phone.
What did he tell you?

A. He originally -- was explained the origins of
some deer parts that he had outside of his residence
which I didn’t know the origins of those so I wasn’t
interested in the origins of those. So he explained
those for a little bit. Then I said, well, what about
the deer that was jacked on Thanksgiving morning
on Hinesburg Hollow Road? And he eventually
admitted that he was present at that time. And then
he started to get a little bit leery of potential
consequences that might come forth of that so he
then said he would consult his attorney and
terminated the phone call.
Q. Okay. And was it at this point that you
applied for a warrant for the garage?
A.

Yes. Electronically. Yes.

Q. Okay. And the following day, or maybe it was
two days later, did you go to the Clark farm?
A. I believe I went to Clark’s barnyard on
Sunday. I don’t have my affidavit in front of me. If I
had my affidavit, I could tell you exactly what day
and time it was.
Q.

But within two or three days of --

A.

Within a short time afterwards. Yes.

Q.

Okay.

64a
A. Because we -- the deer was jacked on
Thanksgiving morning. The next day is when we
interviewed Dewey Streeter, went to obtain the
search warrant and then I believe it was two days
after that that I went to Clark’s Barnyard.
Q. Okay. What do you recall observing in Clark’s
barnyard?
A. I observed blood spots on the snow which I
photographed which was where Mr. Streeter
explained that they would be.
Q. And where did -- where in the barnyard did
you observe those things?
A. So there’s a larger barn and then a space and
then a different barn. There’s kind of like a small
bar way as part of the barnyard. And when I went in
there, I figure that they had gone to the right where
it’s a little bit more sheltered. And I pulled in there
and just conducted foot patrol in the barnyard and
found the blood spot. I also found a rag with some
presumably deer blood on it that was on like a boat
trailer that I assumed was -- they had used after
potentially eviscerating deer.
Q. And -- or maybe I should have asked you this
earlier, but as part of your training, are you trained
to know what deer hair looks like versus some other
animals hair?
A. Yeah. This is day in and day out every fall.
We know what we’re looking for.
MR. OLNEY: Okay. Nothing further. Thank you,
Warden.
THE COURT: Thank you.
Attorney Lednicky?

65a
CROSS-EXAMINATION
BY MS. LEDNICKY:
Q. You testified earlier that you believed that Mr.
Bovat was not home at the time you decided to do
search of h his home; is that correct?
A.

Correct.

Q.

How did you know that information?

A. Mr. Streeter, after we had interviewed him,
had said that he was departing on an out of state
hunting trip. So that’s why we though he was gone.
Q. So knowing that he was gone, you still showed
up at the residence -A.

Yeah, because we were interested in the --

Q.

-- intending to do a search?

A.

-- black truck. Yes.

Q. And when you arrived at Mr. Bovat’s home,
how many vehicles were present?
A. I saw one outside and then when we looked in
the garage window, there was a second truck.
Q. I’m sorry. How many vehicles did you arrive
with? Were you alone? Was there one warden
vehicle? Were there other law enforcement vehicles
present?
A. I believe there were two, potentially three. I
don’t remember if Warden Currier and I were in one
vehicle. I believe that two of us were in one vehicle
and one was in his own vehicle.
Q.

So there would be two vehicles arriving?

A.

I believe so.

66a
Q. Were
vehicles?

they

marked

as

law

enforcement

A. Yes. They all would have been marked game
warden trucks. Yes.
Q. And you’ve mentioned three wardens.
there anyone else present during that initial -A.

Was

No.

Q. Okay. When you first arrived at Mr. Bovat’s
property, did you go to the front door?
A. I don’t remember if we looked to see if the
black truck was there or go to the front door. They
happened very quickly. One after the other. I don’t
remember which one was first.
Q.

So at some point you went to the front door?

A.

Yes.

Q. Do you have any recollection of how long after
when you arrived there you went to the front door?
A. It would have been very quick. I mean, we
would want to touch base to see who was present at
the house. And also one of the things that a game
warden or any law enforcement officer is going to do
upon arriving at a residence is notify the homeowner
what’s going on and also to see what other people are
there for officer safety reasons. So it happens
relatively quick.
Q. So did you identify that there was people
present at the residence?
A.

I probably -- I don’t remember.

Q. To this day, do you remember having -remember anyone present at the residence?

67a
A. Yes.
residence.

I remember Mr. Bovat’s wife at the

Q.

Do you know Ms. Bovat’s name?

A.

Maryanne (ph.), I believe.

Q. Was it you or one of the other wardens that
approached the residence first?
A. I tried to maintain being the contact person to
Mrs. Bovat just because it was my case, my district.
I’m familiar with the Bovat’s just through the
general public interaction. So I tried to maintain
just being the contact person for Mrs. Bovat for the
duration of the case.
Q. And you said earlier that you sought her
consent to search the garage; is that correct?
A.

Yes. Yes.

Q. And you never received that consent; is that
correct?
A. No. It was a little bit wishy washy because it
was -- she said she didn’t have the key to access the
garage which personally I find a little bit hard to
believe that someone whose garage they own they
don’t have access to it. But if she wasn’t giving us
consent, then we weren’t -- we were going to back off
until we either got consent or were going to apply for
a warrant.
Q. And so after confirming that you did not have
consent to search the garage, was it at that point
that you peered through the window and noticed the
truck?
A. I believe that we had looked through the
window pretty soon after arriving.

68a
Q. Can you describe for the Court the dimensions
of this window?
A. It’s a -- it’s hard to describe. It’s not really like
a porthole but it’s kind of -- I remember it being oval
shaped. If I had to guess dimensions, I’m going to
say ten inches by twelve inches potentially.
Q.

Okay.

A. Just a single window in each of one of the
garage doors.
Q. I’m going to show you a photograph and I’d
like you to tell me what you see there.
A. Yeah. This is about the dimensions.
rectangular instead of oval, but it’s about the --

It’s

Q. Can you identify for the Court what’s in this
photograph?
A. This appears to be google earth image from a
street view of Mr. Bovat’s house garage. His truck
that we seized, the truck that he presumably had on
the hunting truck, and his wife’s SUV.
Q.

In that photo?

A.

Yeah.

Q. And is the red and white truck the vehicle that
you believe he had on the hunting trip?
A. That’s the -- by deduction, that’s the vehicle
that I believe he had on -- left with out of state on his
hunting trip.
Q. Is this photograph a fair and accurate
depiction of the layout of the residence when you
arrived there -A.

Yes.

Q.

-- in November of last year?

69a
A.

Yes.

Q. And can you -- you can easily see the two-bay
garage; is that correct?
A.

Absolutely. Yes.

Q. And so you were just describing for us how
large that window is.
A.

This window is. Yes.

Q.

Can you state again how large that window is?

A. About same dimensions, eight inches
vertically and twelve inches horizontally. Based on
this picture, it might be a little bit bigger then I was
originally thinking. But it’s about the dimensions I
had said.
Q. When you arrived at this residence, can you
draw for us or circle where the front door of the
residence was?
A.

Right here.

THE COURT: Before you go any further, can we
just -- what is that marked as?
MS. LEDNICKY:
Exhibit A.

I will mark it as Defendant’s

THE COURT: All right. Thank you.
A. This is what I’m denoting as the front
entrance.
Q.

Sorry.

A.

No problem.

Q. All right. So the witness has circled the front
entrance to Mr. Bovat’s residence. And I’m going to
mark this as Defendant’s Exhibit A. And I move to
admit.

70a
THE COURT: Any objection?
MR. OLNEY: No objection.
THE COURT:
admitted.

All right.

Defendant’s A is

(Google photograph of Defendant’s residence was
hereby marked and received into evidence as
Defendant’s Exhibit A, as of this date.)
***

